Memorandum from the Office of the Inspector General



September 29, 2006

Thomas D. Cosby, LP 6A-C

FINAL REPORT – INSPECTION 2006-518I – CONCERNS RESOLUTION PROGRAM –
TVA NUCLEAR 2006



Attached is the subject final report for your review. This report does not include any
recommendations and is to be used for informational purposes only. Accordingly, no
response is necessary.

Information contained in this report may be subject to public disclosure. Please advise
us of any sensitive information in this report which you recommend be withheld.

If you have any questions, please contact Michael A. Driver, Senior Auditor, at
(423) 751-8158 or Gregory C. Jaynes, Deputy Assistant Inspector General, Inspections,
at (423) 751-7821. We appreciate the courtesy and cooperation received from your staff
during this review.




Ben R. Wagner
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

MAD:SDB
Attachment
cc (Attachment):
     Masoud Bajastani, NAB 1A-BFN
     Ashok S. Bhatnagar, LP 6A-C
     J. Randy Douet, OPS 4A-SQN
     Peyton T. Hairston, Jr., WT 7C-K
     Tom D. Kilgore, WT 7B-K
     Richard W. Moore, ET 4C-K
     Raymond L. Newby, Jr., BR 3B-C
     Brian J. O’Grady, PAB 1E-BFN
     Karl W. Singer, LP 6A-C
     Michael D. Skaggs, ADM 1V-WBN
     Preston D. Swafford, LP 6A-C
     OIG File No. 2006-518I
                        Tennessee Valley Authority
                        Office of the Inspector General


Inspection Report


CONCERNS
RESOLUTION
PROGRAM -
TVA NUCLEAR 2006



Inspection Team                               2006-518I
Michael A. Driver                     September 29, 2006
Deana D. Garrison
Stephanie L. O'Daniel
Michael R. Patty
James A. Piercy
Office of the Inspector General                                             Inspection Report


TABLE OF CONTENTS
EXECUTIVE SUMMARY ........................................................... i

BACKGROUND .......................................................................... 1

OBJECTIVE, SCOPE, AND METHODOLOGY ................... 2

FINDINGS .................................................................................... 3

    SURVEY RESULTS................................................................... 3

    CLOSED FILES ......................................................................... 5

    ALLEGATIONS MADE TO NRC................................................ 5


APPENDICES

A. SUMMARY OF SURVEY RESPONSES FROM TVA NUCLEAR
   EMPLOYEES

B. SUMMARY OF SURVEY RESPONSES FROM TVA NUCLEAR
   CONTRACTOR EMPLOYEES




Inspection 2006-518I
Office of the Inspector General                       Inspection Report


EXECUTIVE SUMMARY
The Tennessee Valley Authority Nuclear (TVAN) Concerns
Resolution Program (CRP) is responsible for addressing nuclear
safety and quality issues. We assessed the effectiveness of the
program in achieving its fundamental mission by (1) surveying
335 TVAN and contractor employees concerning their willingness to
report nuclear safety and quality issues, (2) reviewing closed case
files, and (3) tracking the number of allegations recorded by the
Nuclear Regulatory Commission (NRC) involving Tennessee Valley
Authority’s (TVA) nuclear program. In summary, we determined
the:

•   TVAN workforce (i.e., TVA employees and contractor
    employees with unescorted access to TVA's nuclear facilities)
    generally felt free to raise nuclear safety and quality issues.
    However, many of the responses were not as affirmative as the
    prior survey. For example, the percentages of TVA employees
    and contractor employees who felt confident in the effectiveness
    of the Problem Evaluation Reports and Corrective Action
    Program declined significantly (see page 4).
•   Issues associated with the closed files were generally addressed.
    However, we found a procedural error for TVA’s CRP at Browns
    Ferry Nuclear Plant. In four instances employees had been
    granted confidentiality, but the corresponding agreement could
    not be located. The reason for this occurrence resulted from the
    concerned individual contacting Concerns Resolution Staff by
    telephone and not appearing in person to sign the confidentiality
    agreement form.
•   Number of allegations made directly to NRC by TVAN's
    workforce has increased in the last three years. Despite this
    increase, the number of allegations remains lower than the high
    years 1996 - 1997 (see page 6).

Based on these findings, we believe the fundamental mission of the
CRP is being met.




Inspection 2006-518I                                            Page i
Office of the Inspector General                                           Inspection Report


BACKGROUND
The Tennessee Valley Authority Nuclear (TVAN) Concerns Resolution
Program's (CRP) fundamental mission is to help ensure all Tennessee
Valley Authority (TVA) and contractor employees supporting TVAN
"are free to express safety issues, concerns, or differing views to TVAN
management without fear of reprisal, and all such concerns and issues
are investigated and resolved in a timely manner."

TVAN's Concerns Resolution Staff (CRS), which is responsible for
implementing the CRP, "provides an alternate avenue for the
resolution of differing views and opinions related to the safe
operation of TVAN plants." While the primary responsibility of the
CRS is the resolution of nuclear safety and quality issues, other
issues may be handled by the CRS at the discretion of TVA
management and the applicable CRS site representative.

Larger managed task contractors have an Employee Concerns
Program (ECP), a program for contractor employees with a mission
analogous to the CRS mission for TVAN employees.1 While
contractor employees are encouraged to use the ECP, these
employees may also express concerns or issues directly to the
CRS. The ECPs are subject to CRS' oversight.

In 1986, TVA committed to the Nuclear Regulatory Commission
(NRC) that TVA's Office of the Inspector General would periodically
review the CRP. Since 1994, we have assessed program
effectiveness using a standardized approach of (1) surveying
TVAN's workforce and (2) reviewing closed case files. These
measures enable us to compare and trend survey results. Our
previous review was issued in August 2004.

This report addresses the results of our overall assessment. Also, at
the request of TVA management, we are issuing a separate report
addressing the willingness of Browns Ferry Nuclear (BFN) employees
and contractors to report nuclear safety and quality issues (Inspection
2006-519I).

We plan to summarize the comments volunteered by responders
into categories and forward the results to management for
consideration.2

1
    At the time of our review, Stone & Webster Construction, Inc. (SWCI), and Bechtel
    Corporation (Bechtel) were the TVA contractors that had an ECP at TVA.
2
    We will not categorize any comments in such a way that the confidentiality of the survey
    respondent will be lost.
Inspection 2006-518I                                                                 Page 1
Office of the Inspector General                                         Inspection Report


OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective was to determine if the CRP was effectively
accomplishing its fundamental mission. To achieve our objective,
we:

•     Reviewed applicable CRS and ECP policies and procedures.
•     Randomly selected and interviewed 335 of the 7,294 TVAN and
      contractor employees who had access to TVA's nuclear plants
      as of May 24, 2006, to determine to what extent TVAN's
      workforce was willing to report nuclear safety and quality issues.
      Our sample size allowed us to achieve a 95 percent confidence
      level. We set our error rate at 31 percent.3
•     Surveyed 181 TVAN employees and 154 contractor employees
      located at TVAN Corporate offices in Chattanooga, BFN, Watts
      Bar Nuclear Plant (WBN), and Sequoyah Nuclear Plant (SQN).
      Not all of the respondents answered each question in a
      quantifiable manner. We used the complete and quantifiable
      responses for each question to calculate the percentages
      reported within this report. We also requested each interviewee
      to complete an anonymous feedback form, thus giving the
      surveyed employees another opportunity to provide additional
      information about the program or any other concerns.
•     Reviewed all case files (126 CRS and 122 ECP) provided to us
      by the CRS and ECP representatives as being closed from
      June 1, 2004, to May 1, 2006. We assessed each file to
      determine whether it contained evidence that the CRS and ECP
      representatives had properly addressed the issues.
•     Obtained historical data on the number of allegations recorded
      by NRC relative to TVA and total TVAN employment for
      calendar years 1996 through May 2006. Based on the number
      of allegations through June 2006, we annualized a projection for
      the year 2006. The numbers of allegations are reported without
      reference to the subject matter or the identity of the concerned
      individuals. We did not attempt to verify this data.

We did not assess CRS' effectiveness relative to current issues or
open files. We performed this inspection in accordance with the
“Quality Standards for Inspections.”


3
    We determined the error rate by using the greatest number of negative responses to any
    single critical question in the 2004 TVAN CRP review. In this case, question 17 of the
    2004 TVAN employee survey had 31 percent of respondents answering in the negative.
Inspection 2006-518I                                                              Page 2
Office of the Inspector General                         Inspection Report


FINDINGS
In our opinion, the CRS and ECP are effectively achieving the
fundamental mission of TVA's CRP. In summary:

•   Our 2006 survey results demonstrate TVAN's workforce
    generally felt free to raise nuclear safety and quality issues.
    However, many of the responses were not as affirmative as the
    prior survey. For example, the percentages of TVA employees
    and contractor employees who felt confident in the effectiveness
    of the Problem Evaluation Reports (PER) and Corrective Action
    Program (CAP) declined significantly.
•   The CRS and ECP representatives generally addressed issues
    in the case files we reviewed. However, we found a procedural
    error for TVA’s CRP at BFN. In four instances employees had
    been granted confidentiality, but no corresponding confidentiality
    agreement form was located. The reason for this occurrence
    resulted from the concerned individual contacting CRS by
    telephone and not appearing in person to sign the confidentiality
    agreement form.
•   The number of allegations made directly to NRC by TVAN's
    workforce has increased in the last three years. Despite this
    increase, the number of allegations remains lower than the high
    years 1996 - 1997.

SURVEY RESULTS
Our survey results indicate TVAN's workforce generally felt free to
raise nuclear safety and quality issues. However, many of the
responses were not as affirmative as the prior survey. For
example, the percentages of TVA employees and contractor
employees who felt confident in the effectiveness of the problem
resolution process declined significantly (see Appendices A and B).
Specifically, we determined:

•   98.8 percent of TVAN employees and contractors said they
    would report nuclear safety or quality problems through some
    avenue. Also, 88.9 percent of TVAN employees and
    89.6 percent of contractor employees said they would report a
    nuclear safety or quality problem to their primary concerns
    program (i.e., CRS or ECP). Additionally, of the contractor
    employees who were aware the CRS existed, 80.9 percent
    would report a nuclear safety or quality problem to the CRS.


Inspection 2006-518I                                              Page 3
Office of the Inspector General                          Inspection Report


•   98.3 percent of TVAN employees and 94.1 percent of TVAN
    contractor employees were aware the CRS existed as a
    mechanism for reporting employee concerns. In addition,
    93 percent of contractor employees knew their company had an
    ECP. At the time of our review, SWCI and Bechtel were the
    only contractors that had an ECP at TVA.
•   89.5 percent of TVAN employees and 85.7 percent of TVAN
    contractor employees who were aware of their respective
    programs felt free to raise intimidation and harassment
    concerns to either the CRS or ECP. Of the 16 TVAN
    employees who did not respond affirmatively to this question,
    two felt the CRS would not effectively address their problems,
    two said they would handle it personally, five feared reprisal, six
    had a nonnegative reason, and one said they would report it
    elsewhere. Of the 11 contractor employees who did not
    respond affirmatively to this question, three felt the CRS or ECP
    would not effectively address their problems, three feared
    reprisal, one said they would handle it personally, one said it
    would hurt their career, one said they would report it elsewhere,
    and two had a nonnegative reason.
•   94.5 percent of TVAN employees and 93.5 percent of TVAN
    contractors would report a problem unrelated to nuclear safety
    or quality to their supervisors.
•   81.2 percent of TVAN employees and 86.4 percent of TVAN
    contractors felt free to express an unpopular view without
    hurting their careers.

On the question pertaining to the effectiveness of PERs and the
CAP, we found that both TVA employees and contractor employees
were less confident in the process to effectively address issues
than in any other survey we have done. Specifically, 60.2 percent
of TVAN employees and 59.1 percent of TVAN contractors believed
PERs and the CAP are effective in correcting issues. These
affirmative rates are substantially lower than the 69 percent and
68 percent affirmative rates for TVA employees and contractors,
respectively, calculated in our 2004 survey.

If an employee's answers are not affirmative, we asked them if they
would explain their reluctance. On the issue of the PER program's
effectiveness, we observed that 59.4 percent of those who work in
TVAN believe the program is effective. Many people claimed that
PERs are written too often, or PERs are written on insignificant
matters or issues that should be addressed elsewhere. The other
criticisms were for matters such as:

Inspection 2006-518I                                               Page 4
Office of the Inspector General                                          Inspection Report


•    The electronic CAP system leads to inefficiency.
•    Sometimes the root cause of the problem is not determined.
•    Sometimes PERs are written punitively against people.

CLOSED FILES
We reviewed the 126 CRS files and 122 ECP files that were closed
through May 1, 2006, to determine if the CRS fulfilled its
responsibility for ensuring concerns are properly addressed. In our
opinion, based on the information included in the 248 files, the CRS
and ECP representatives generally addressed the issues.
However, we noted that the documentation for SWCI ECP at both
WBN and SQN were not as detailed as the ECP for BFN. File
closure sheets which identify the date and reason for the file
closure were not found in several files.

In addition, we found a procedural error for TVA’s CRP at BFN. In
four instances employees had been granted confidentiality, but no
corresponding confidentiality agreement form was located. The
reason for this occurrence resulted from the concerned individual
contacting CRS by telephone and not appearing in person to sign
the confidentiality agreement form.

ALLEGATIONS MADE TO NRC

As illustrated in Figure 1, the number of allegations recorded by
NRC has increased in the last three years.

                         TVAN NRC ALLEGATIONS
    120                   (Number Per Calendar Year)
    100
                                                       Annualized
    80                                                 Actual

    60
          98
    40
               54                                           16 Through June
    20              37                            38   38        2006
                         26   23
                                   10   15   17             16
     0
        96

        97

        98

        99

        00

        01

        02

        03

        04

        05

        06
     19

     19

     19

     19

     20

     20

     20

     20

     20

     20

     20




                                                                        Figure 1




Inspection 2006-518I                                                               Page 5
Office of the Inspector General                    Inspection Report

Much of the decrease in Figure 1 from 1996 through 2003 has been
attributed to reduced employment in TVAN's workforce. Similarly,
an increase in TVAN's workforce associated with the Browns Ferry
Unit 1 restart project may be related to the recent increase in
allegations.




Inspection 2006-518I                                         Page 6
                                                                                                                             APPENDIX A
                                                                                                                              Page 1 of 5

                                            SUMMARY OF SURVEY RESPONSES
                                             FROM TVA NUCLEAR EMPLOYEES

        Year of Concerns Resolution Program Survey                            2006         2004         2002          2000    1998   1996
        TVA Nuclear Employees Interviewed                                      181          173          180           194     235    203

                                                                                                           Affirmative Response Results1
                                                                                                                    (Percentages)

    1. Would report a nuclear safety or quality problem.                       99.4         100         99.4          100     100    97.5

    2. Would report a nuclear safety or quality problem to
       supervisor.                                                             99.4        99.4         98.9          97.9    100    99.5

    3. Would report a nuclear safety or quality problem to
       supervisor first.                                                       90.6         94           93            92      92     92

    4. Immediate supervisor would be among top three
       choices for reporting nuclear safety or quality
       problems.                                                               93.9         97           94            94      97     96

    5. Aware that TVA has a Concerns Resolution Staff
       (CRS) for reporting employee concerns.                                  98.3         96           100           99      99     99

    6. Would report nuclear safety or quality problems to the
           2
       CRS.                                                                    88.9         93           91            94      94     93

    7. Have used the CRS program.*                                             10.5         12           13            11      9      17

    8. Would report a problem unrelated to nuclear safety or
       quality to supervisor.                                                  94.5         97           98            97      98     97

    9. Would feel free to express an unpopular view without
       hurting career.                                                         81.2         87           88            85      86     78

10. Have initiated a Problem Evaluation Report (PER)
    within the last two years.*                                                66.3         65           62            55      ---    ---

11. Believe the PER/Corrective Action Program is
    effective in correcting issues.                                            60.2         69           80            81      91     ---




1
    The affirmative response percentages were calculated by dividing the yes answers by the sum of all the answers.
2
    These questions were asked only to employees who were aware TVA had a CRS.
* Questions 7 and 10 ask for responses that depend greatly on the individual's unique circumstances. We made
  no effort to evaluate these responses.
                                                                                                         APPENDIX A
                                                                                                          Page 2 of 5

                                             SUMMARY OF SURVEY RESPONSES
                                              FROM TVA NUCLEAR EMPLOYEES
                                                                                   3
12. What do you consider to be among the primary purposes of TVA's CRS?

                                                                                               Calendar Year
                          Primary Purpose                                2006    2004   2002   2000    1998    1996
        Alternate / Additional path to line management                  46.4%    47%    43%    42%     28%     48%

        Investigate / Record nuclear safety concerns                    22.6%    21%    13%    9%      18%     15%

        Provide a safe harbor to register concerns                      10.5%    8%     4%     14%      9%     10%

        Catch concerns before they become problems                      2.7%     7%     5%     2%       8%     6%

        Handle management and personnel issues                          4.4%     5%     3%     2%       3%     4%

        Other reasons                                                   13.4%    12%    32%    31%     34%     17%

                                            Number Interviewed            181    166    180    194     235     203
                                          Number of Responses             251    193    233    235     274     250




3
    These questions were asked only to employees who were aware TVA had a CRS.
                                                                                                                     APPENDIX A
                                                                                                                      Page 3 of 5

                                              SUMMARY OF SURVEY RESPONSES
                                               FROM TVA NUCLEAR EMPLOYEES
                                                                                                        4
13. Do you feel free to raise Intimidation and Harassment (I&H) concerns with the CRS?


                                 2006 TVAN Survey*                                                 2004 TVAN Survey*
                           Employee Responses = 180                                           Employee Responses = 166
                                                                                 100%            92%
          100%                90%
                                                                                 80%
           80%
           60%                                                                   60%

           40%                                                                   40%

           20%                                               8%                  20%                                       7%
            0%                                                                    0%
                  Feel Free to Report I&H       Would Not Report for a                  Feel Free to Report I&H   Would Not Report for a
                                                  Negative Reason                                                   Negative Reason




                                 2002 TVAN Survey*                                                2000 TVAN Survey*
                       Employee Responses = 180                                                Employee Responses = 192
         100%                92%                                                 100%
          90%                                                                                     89%
          80%                                                                     80%
          70%
          60%                                                                     60%
          50%
                                                                                  40%
          40%
          30%                                                                     20%                                       8%
          20%
                                                            7%
          10%                                                                      0%
           0%
                                                                                        Feel Free to Report I&H    Would Not Report for a
                    Feel Free to Report I&H    Would Not Report for a Negative
                                                          Reason
                                                                                                                     Negative Reason




                              1998 TVAN Survey*                                                  1996 TVAN Survey*
                           Employee Responses = 234                                             Employee Responses = 201
         100%                95%                                                 100%            91%
          80%                                                                     80%
          60%                                                                     60%
          40%                                                                     40%
          20%                                                4%                   20%                                       7%
           0%                                                                      0%
                  Feel Free to Report I&H       Would Not Report for a                  Feel Free to Report I&H   Would Not Report for a
                                                  Negative Reason                                                   Negative Reason




4
    These questions were asked only to employees who were aware TVA had a CRS.
                                                                                                                           APPENDIX A
                                                                                                                            Page 4 of 5

                                           SUMMARY OF SURVEY RESPONSES
                                            FROM TVA NUCLEAR EMPLOYEES
                                            5
14. Do you feel the CRS is effective?

                               2006 TVAN Survey                                                     2004 TVAN Survey



                 No
              Opinion                                                                 No
                                                                                   Opinion                           Effective
              or Basis                                Effective                                                       42%
                                                   23%                             or Basis
                         73%
                                                                                              56%

                                                 4%
                                                  Ineffective                                                  2% Ineffective

                                                251 Responses                                                      174 responses


                               2002 TVAN Survey                                                     2000 TVAN Survey

                                                                                                             Ineffective
                     No                                                               No                      6%
                  Opinion                                                          Opinion or
                  or Basis                                                           Basis
                       45%                            Effective                               46%
                                                      50%
                                                                                                                       Effective
                                                                                                                     48%


                      Ineffective 5%
                                                                                                                    235 Responses
                                                233 Responses



                             1998 TVAN Survey                                                   1996 TVAN Survey

             No
                                                                                    No
          Opinion
                                                                                 Opinion or
          or Basis
                                                                                   Basis
                      44%                             Effective                           43%                              Effective
                                                  52%
                                                                                                                           51%



                     Ineffective 4%                                                     Ineffective     6%
                                         217 Responses                                                         196 Responses
5
    These questions were asked only to employees who were aware TVA had a CRS.
                                                                                                                     APPENDIX A
                                                                                                                      Page 5 of 5

                                        SUMMARY OF SURVEY RESPONSES
                                         FROM TVA NUCLEAR EMPLOYEES

15. In your judgment, how well are problems being resolved at your site?


                         2006 TVAN Survey                                                     2004 TVAN Survey
      60%

      50%               42%                                                60%
                                                                           50%               46%
      40%

      30%                                                                  40%
                                21%                                                25%
             17%                                                           30%
      20%
                                        7%                    8%           20%                        14%
      10%                                        5%                                                                                  10%
                                                                           10%                                4%
                                                                                                                        1%
       0%
                                                                            0%
            Very Good   Good     Fair   Poor   Very Poor       No
                                                                                 Very Good   Good      Fair   Poor    Very Poor        No
                                                            Opin./Dir.
                                                                                                                                    Opin./Dir.
                                                           Knowledge
                                                                                                                                   Knowledge

                        179 Responses                                                               171 Responses




                         2002 TVAN Survey                                                    2000 TVAN Survey

      60%                                                                  60%
      50%                                                                  50%
                        40%                                                                  40%
      40%                                                                  40%     36%
              31%
      30%                                                                  30%
      20%                       16%
                                                                           20%
                                                              9%                                      11%                             9%
      10%                               3%       1%                        10%                                3%        1%
       0%                                                                  0%
            Very Good   Good     Fair   Poor   Very Poor       No
                                                                                 Very Good   Good     Fair    Poor   Very Poor       No
                                                            Opin./Dir.
                                                                                                                                  Opin./Dir.
                                                           Knowledge
                                                                                                                                  Knowledge
                               180 Responses                                                        194 Responses



                         1998 TVAN Survey                                                    1996 TVAN Survey
      60%
                                                                         60%
      50%
                        39%                                              50%
      40%     34%                                                                            40%
                                                                         40%      35%
      30%

      20%                                                                30%
                                12%                          14%
      10%                                                                20%
                                                                                                                                    12%
                                        1%       0%                                                   9%
       0%                                                                10%
                                                                                                              2%       2%
            Very Good   Good     Fair   Poor   Very Poor      No
                                                           Opin./Dir.      0%
                                                           Knowledge             Very Good   Good     Fair    Poor   Very Poor        No
                                                                                                                                   Opin./Dir.
                        235 Responses                                                                                             Knowledge
                                                                                     203 Responses
                                                                                                                             APPENDIX B
                                                                                                                              Page 1 of 5

                                      SUMMARY OF SURVEY RESPONSES
                                 FROM TVA NUCLEAR CONTRACTOR EMPLOYEES

        Contractor Employees Interviewed                                       154           64           95          55      78          53

                                                                                                          Affirmative Response Results1
                                                                                                                   (Percentages)

    1. Would report a nuclear safety or quality problem.                       98.1         100          98.9         100    100         100

    2. Would report a nuclear safety or quality problem to
       supervisor.                                                             97.4         100          98.9         100    100         100

    3. Would report a nuclear safety or quality problem to
       supervisor first.                                                       82.5          94           89          87      92          83

    4. Immediate supervisor would be among top three
       choices for reporting nuclear safety or quality
       problems.                                                               92.2          97           89          91      97          85

    5. Aware that TVA has a Concerns Resolution Staff
       (CRS) for reporting employee concerns.                                  94.1          97           95          95      96         100

    6. Aware that TVA contract employer has an Employee
       Concerns Program (ECP) for reporting employee
       concerns.                                                                93          100           97          100     99         100

    7. Would report nuclear safety or quality problems to
                2,3
       CRS/ECP.                                                                89.6          94           96          98      90          98

    8. Would report nuclear safety or quality problems to
                                       2
       CRS (contractors with an ECP).                                          80.9          97          100          100     89          96

    9. Have used the CRS program.*                                             11.3           8           9            4      9           13

10. Have used the ECP program.*                                                 8.4           9           6           11      7           12

11. Would report a problem unrelated to nuclear safety or
    quality to supervisor.                                                     93.5          95           96          100     94          96

12. Would feel free to express an unpopular view without
    hurting career.                                                            86.4          86           88          89      82          89

1
    The affirmative response percentages were calculated by dividing the yes answers by the sum of all the answers.
2
    These questions were asked only to those who were aware of the CRS/ECP.
3
    The primary program for TVA employees is the CRS, whereas the primary program for contractor employees is the ECP. Contractor employees
    who do not have an ECP use the CRS as their primary program.
* Questions 9 and 10 ask for responses that depend greatly on the individual's unique circumstances. We made
  no effort to evaluate these responses.
                                                                                                                       APPENDIX B
                                                                                                                        Page 2 of 5

                                    SUMMARY OF SURVEY RESPONSES
                               FROM TVA NUCLEAR CONTRACTOR EMPLOYEES

        Year of Concerns Resolution Program Survey                        2006         2004        2002      2000     1998   1996
        Contractor Employees Interviewed                                  154           64          95        55       78     53

                                                                                    Affirmative Response Results
                                                                                            (Percentages)

13. Have initiated a Problem Evaluation Report (PER)
    within the last two years.*                                           22.7          20              16    16       ---    ---

14. Believe the PER/Corrective Action Program is
    effective in correcting issues.                                       59.1          68              84    87       89     ---

15. What do you consider to be among the primary purposes of the CRS/ECP?4

                                                                                                             Calendar Year
                           Primary Purpose                                2006         2004        2002      2000     1998   1996
        Alternate / Additional path to line management                   27.2%         27%         28%       33%      22%    24%

        Investigate / Record nuclear safety concerns                     23.4%         24%         16%       20%      25%    22%

        Provide a safe harbor to register concerns                       11.6%         13%          4%       15%      11%    10%

        Catch concerns before they become problems                        7.8%         10%         10%       11%       7%    5%

        Handle management and personnel issues                            3.9%          1%          4%       3%        9%    10%

        Other reasons                                                    26.1%         24%         38%       18%      26%    29%

                                             Number Interviewed               154       64          95        55      78      53
                                           Number of Responses                123       78          117       61      102     59




4
    These questions were asked only to those who were aware of the CRS/ECP.
* Question 13 ask for responses that depend greatly on the individual's unique circumstances. We made
  no effort to evaluate these responses.
                                                                                                                                    APPENDIX B
                                                                                                                                     Page 3 of 5

                                    SUMMARY OF SURVEY RESPONSES
                               FROM TVA NUCLEAR CONTRACTOR EMPLOYEES
                                                                                                               5
16. Do you feel free to raise Intimidation and Harassment (I&H) concerns with CRS/ECP?


                           2006 TVAN Survey*                                                           2004 TVAN Survey*
                            Contractor Responses = 152                                              Contractor Responses = 62
          100%                                                                         100%
                            86%                                                                          87%
           80%                                                                          80%

           60%                                                                          60%

           40%                                                                          40%
           20%                                        7%
                                                                                        20%                                            8%
             0%
                                                                                         0%
                   Feel Free to Report I&H   Would Not Report for a                             Feel Free to Report I&H   Would Not Report for a Negative
                                               Negative Reason                                                                       Reason




                           2002 TVAN Survey*                                                           2000 TVAN Survey*
                         Contractor Responses = 93                                                  Contractor Responses = 55
          100%              97%                                                       100%             96%
           80%                                                                          80%
           60%                                                                          60%
           40%                                                                          40%
           20%                                                                          20%                                             4%
                                                      2%
            0%                                                                           0%
                  Feel Free to Report I&H    Would Not Report for a                           Feel Free to Report I&H Would Not Report for a
                                               Negative Reason                                                          Negative Reason




                           1998 TVAN Survey*                                                           1996 TVAN Survey*
                          Contractor Responses = 77                                                   Contractor Responses = 51
           100%                                                                        100%             94%
                             88%
            80%                                                                         80%

            60%                                                                         60%

            40%                                                                         40%
            20%                                       10%                               20%
                                                                                                                                        4%
             0%                                                                          0%
                   Feel Free to Report I&H   Would Not Report for a                            Feel Free to Report I&H Would Not Report for a
                                               Negative Reason                                                           Negative Reason




5
    These questions were asked only to those who were aware of the CRS/ECP.
* Some interviewees gave a neutral response to the question. Those responses were not included in the graph.
                                                                                                             APPENDIX B
                                                                                                              Page 4 of 5

                                      SUMMARY OF SURVEY RESPONSES
                                 FROM TVA NUCLEAR CONTRACTOR EMPLOYEES
                                                     6
17. Do you feel the CRS/ECP is effective?


                           2006 TVAN Responses                                               2004 TVAN Responses


                  No                                                                No
                                                 Effective
               Opinion                                                           Opinion
               or Basis                          33%                             or Basis
                                                                                                                   Effective
                                                                                          44%
                                                                                                                   50%

                       61%

                                                6%
                                                                                                      6%
             123 Responses                       Ineffective                   Ineffective                 68 Responses




                           2002 TVAN Responses                                                  2000 TVAN Survey

               No Opinion                                                         No
                or Basis                                                       Opinion
                                                                               or Basis

                       39%                                                              41%
                                                     Effective                                                        Effective
                                                   58%                                                                56%


             Ineffective        3%
                                                                                   Ineffective       3%
                                             117 Responses
                                                                                                           61 Responses


                             1998 TVAN Survey                                                   1996 TVAN Survey
            No Opinion                                                             No
             or Basis                                                           Opinion or
                                                                                  Basis
                          33%                                                          38%

                                                                                                                         Effective
                                                          Effective
                                                                                                                    60%
                            3%                  64%
                                                                                                2%

             Ineffective                69 responses                          Ineffective
                                                                                                             50 Responses


6
    These questions were asked only to those who were aware of the CRS/ECP.
                                                                                                                                              APPENDIX B
                                                                                                                                               Page 5 of 5

                                              SUMMARY OF SURVEY RESPONSES
                                         FROM TVA NUCLEAR CONTRACTOR EMPLOYEES

18. In your judgment, how well are problems being resolved at your site?


                                     2006 TVAN Survey                                                                   2004 TVAN Survey

        60%                                                                                          60%
                                                                                                                       52%
        50%                                                                                          50%
                                   42%
        40%                                                                                          40%

        30%                                                                                          30%     27%
                                                 20%
        20%          17%                                                                             20%
                                                               11%                                                             13%
                                                                                          9%
        10%                                                                                          10%                                                       6%
                                                                                 1%                                                    2%        2%
          0%                                                                                          0%
                  Very Good        Good           Fair          Poor       Very Poor       No              Very Good   Good     Fair   Poor    Very Poor        No
                                                                                        Opin./Dir.                                                           Opin./Dir.
                                                                                       Knowledge                              64 Responses                  Knowledge
                                    152 Responses



                                    2002 TVAN Survey                                                                   2000 TVAN Survey

      60%                                                                                            60%

      50%                                                                                            50%
                                 41%
                   36%                                                                               40%
      40%                                                                                                              29%
                                                                                                             27%
                                                                                                     30%                        22%
      30%
                                                                                                     20%                                                       16%
      20%                                                                                 14%                                          6%
                                                10%                                                  10%
                                                                                                                                                  0%
      10%                                                                                            0%
                                                                0%               0%                        Very Good   Good     Fair   Poor     Very Poor        No
        0%                                                                                                                                                    Opin./Dir.
                Very Good         Good           Fair          Poor        Very Poor       No                                                                Knowledge
                                                                                        Opin./Dir.
                                           73 Responses
    (Note: Responses from 22 nuclear security individuals were removed because         Knowledge                              55 Responses
    they were not asked the same question.)




                                   1998 TVAN Survey                                                                    1996 TVAN Survey

                                                                                                     60%
      60%                                                                                                              49%
      50%                                                                                            50%
                                                                                                             38%
      40%          33%           35%                                                                 40%

      30%                                                                                            30%
      20%                                       13%                                       13%        20%
                                                                                                                                                               9%
      10%                                                       4%               2%                  10%                        4%
                                                                                                                                       0%        0%
        0%                                                                                           0%
                Very Good         Good           Fair          Poor        Very Poor       No
                                                                                                           Very Good   Good     Fair   Poor    Very Poor        No
                                                                                        Opin./Dir.
                                                                                                                                                             Opin./Dir.
                                                                                       Knowledge
                                                                                                                                                            Knowledge

                                             78 Responses                                                                     53 Responses
